APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Third Circuit, United States v.
Rojas, No. 19-2056 (Jan. 11, 2021) ............. App-1
Appendix B
Order, United States Court of Appeals for
the Third Circuit, United States v. Rojas,
No. 19-2056 (Feb. 12, 2021)....................... App-15
Appendix C
Memorandum & Order, United States
District Court for the Middle District of
Pennsylvania, United States v. Murray,
No. 1:15-CR-00169 (Mar. 12, 2021) .......... App-17
Appendix D
Memorandum, United States District
Court for the Middle District of
Pennsylvania, United States v. Murray,
No. 1:15-CR-00169 (May 20, 2019) ........... App-19
Appendix E
Order, United States District Court for
the Middle District of Pennsylvania,
United States v. Murray, No. 1:15-CR00169 (June 14, 2017) ............................... App-27
Appendix F
Relevant Statutory Provisions .................. App-35
21 U.S.C. § 331(k) ............................... App-35
21 U.S.C. § 333(a)................................ App-35
21 U.S.C. § 353(b)................................ App-36

ii
21 U.S.C. § 353(f) ................................ App-38
21 U.S.C. § 396 .................................... App-40

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 19-2056
________________
UNITED STATES OF AMERICA,
v.

Appellee,

MURRAY ROJAS,
Appellant.
________________
Submitted Under Third Circuit
L.A.R. 34.1(a) April 17, 2020
Filed: Jan. 11, 2021
________________
Before: CHAGARES, SCIRICA, and ROTH,
Circuit Judges.
________________
OPINION *
________________
CHAGARES, Circuit Judge.
Murray Rojas was a licensed horse trainer in
Pennsylvania who was convicted by a jury of causing
prescription animal drugs to become misbranded in
violation of the Federal Food, Drug and Cosmetic Act
* This disposition in not an opinion of the full Court and,
pursuant to I.O.P. 5.7, does not constitute binding precedent.

App-2
(“FDCA”), 21 U.S.C. §§ 331(k), 353(f), and 333(a), as
well as conspiracy to commit misbranding in violation
of 18 U.S.C. § 371. She now appeals her conviction and
sentence, arguing that the District Court erred in
denying her motions for acquittal and in instructing
the jury because it failed to distinguish between two
terms in the relevant FDCA provisions; abused its
discretion in making two evidentiary rulings; and
erred in sentencing her for felony rather than
misdemeanor misbranding. For the following reasons,
we will affirm.
I.
We write solely for the parties and so recite only
the facts necessary to our disposition. Pennsylvania
thoroughbred horse racing regulations include the
following rule: “A person acting alone or in concert
may not administer or cause to be administered a
substance to a horse entered to race . . . within 24
hours prior to the scheduled post time for the first
race, except as otherwise provided.” 58 Pa. Code
§ 163.302(a)(2). 1 Racetracks in Pennsylvania have
administrative
mechanisms
and
toxicological
laboratories for enforcing this rule, and Pennsylvania
law provides for criminal sanctions if a person
intentionally acts to prevent a publicly exhibited
contest—such as a horse race—from being conducted
according to its rules. 18 Pa. Cons. Stat. § 4109.
Rojas was a state-licensed thoroughbred horse
trainer who trained and raced horses at Penn National
1 Post time is the “[d]esignated time for a horse race to start.”
Horse Racing Dictionary, Pimlico, https://www.pimlico.com/
racing-101/horse-racing-dictionary (last visited July 15, 2020).

App-3
Race Track (“Penn National”) in Grantville,
Pennsylvania. She was charged by a federal grand
jury with six counts of wire fraud, one count of
conspiracy to commit wire fraud, thirteen counts of
felony misbranding of animal drugs, and one count of
conspiracy to commit misbranding of animal drugs.
The Government contended that Rojas devised and
executed a scheme in which she would administer, or
instruct the veterinarians working at Penn National
to administer, certain prohibited substances to her
horses within twenty-four hours of post time.
Three veterinarians worked at Penn National
during the relevant time period. At trial, all three
testified that Rojas routinely instructed them to
administer drugs to her horses within twenty-four
hours of post time and that Rojas occasionally would
administer the drugs herself. The veterinarians
further testified that they hid their conduct by
submitting fraudulent documents to the Pennsylvania
Racing Commission (the “Commission”). The
veterinarians would indicate which drugs they
administered and backdate the documents to make it
appear that the drugs were administered more than
twenty-four hours before post time; or, they would
accurately date the document and misrepresent the
drugs that they administered.
The Government introduced administrative
rulings from Penn National stewards (the “Steward
Rulings”) for races in which Rojas’s horses were
disqualified for testing positive for prohibited
substances. Robert Scott Campbell, the Commission’s
chief steward at the time, testified that the stewards
enforce Pennsylvania’s horse racing regulations. He

App-4
detailed the relevant drug testing procedures and
explained that the Steward Rulings reflect the
Commission’s final decisions to disqualify horses for
testing positive for prohibited substances. Rojas
objected to admission of the Steward Rulings into
evidence on hearsay and Confrontation Clause
grounds, but the District Court held that the Steward
Rulings were admissible under the business records
exception to the hearsay rule and that they did not
violate Rojas’s Confrontation Clause rights because
they were non-testimonial.
The District Court precluded Rojas from
introducing evidence to show whether the drugs
administered to her horses within twenty-four hours
of post time were therapeutic versus performance
enhancing. It ruled that the distinction was irrelevant
to whether Rojas violated 58 Pa. Code § 163.302(a)(2)
because that provision bars all drugs within twentyfour hours of post time (subject to narrow exceptions
not at issue), regardless of their purpose.
At the close of trial, the District Court instructed
the jury that, to find Rojas guilty of felony
misbranding, “the Government must prove beyond a
reasonable doubt each of the following”:
One, that Ms. Rojas caused prescription
animal drugs to be dispensed; two, that the
prescription animal drugs were held for
sale . . . after they moved in interstate
commerce; three, that the prescription
animal drugs were misbranded because they
were prescription animal drugs that were
dispensed without a prescription or other
order authorized by law; and four, that Ms.

App-5
Rojas acted with the intent to defraud and
mislead . . . .
Trial Tr. at 1458-59, United States v. Rojas, No. 15-cr00169 (M.D. Pa. June 26, 2019), ECF No. 202. Rojas
objected to the instructions, arguing that the District
Court should have instructed the jury on the
difference between “administering” drugs and
“dispensing” them. She asserted that “[a] drug is
‘dispensed’ when, based upon a veterinarian’s written
prescription or oral order, a drug is given for use by
the patient” while “a drug is ‘administered’ . . . when
it is applied directly to the patient.” Appendix (“App.”)
243. The District Court rejected all of Rojas’s proposed
jury instructions to this effect.
The jury acquitted Rojas on the wire fraud and
conspiracy to commit wire fraud counts and convicted
Rojas on the misbranding and conspiracy to commit
misbranding counts. Through a special interrogatory
in the verdict form, the jury also found that Rojas had
acted with intent to defraud or mislead.
After the verdict, the District Court denied Rojas’s
motion for acquittal, in which she had argued that the
Government should not “be permitted to substitute
the act of administering a drug where a statutory act
of misbranding requires proof of dispensing” and that
there was no evidence that Rojas “dispensed” animal
drugs. App. 221-22. Rojas later filed a renewed motion
for judgment of acquittal arguing the same point. The
District Court denied that motion as well, and it
denied Rojas’s subsequent motion for reconsideration.
Rojas objected to the United States Probation
Office’s Guidelines calculation, arguing that she did
not act with the intent to defraud or mislead required

App-6
for felony misbranding because there was no evidence
that she participated in, or agreed to participate in,
the veterinarians’ false representations to the
Commission. Nevertheless, the District Court
sentenced Rojas for felony misbranding because the
jury found that she had acted with the requisite
intent. Rojas was sentenced to twenty-seven months
of imprisonment, two years of supervised release, a
$5,000 fine, and a $1,400 special assessment. Rojas
timely appealed.
II.
The District Court had jurisdiction under 18
U.S.C. § 3231. We have jurisdiction under 28 U.S.C.
§§ 1291 and 3742.
We exercise plenary review over the District
Court’s denial of Rojas’s motions for a judgment of
acquittal. See United States v. Starnes, 583 F.3d 196,
206 (3d Cir. 2009). Interpreting the evidence in the
light most favorable to the Government, we will
uphold the jury’s verdict “if there is substantial
evidence from which a rational trier of fact could find
the essential elements of the crime beyond a
reasonable doubt.” Id.
We review the District Court’s refusal to give
specific jury instructions for abuse of discretion, but
exercise plenary review over whether the jury
instructions correctly stated the law. United States v.
Friedman, 658 F.3d 342, 352 (3d Cir. 2011). We review
the District Court’s evidentiary rulings for abuse of
discretion. Id. Finally, with respect to Rojas’s
sentencing, we exercise plenary review over the
District Court’s interpretation of the relevant
statutory provision and review factual findings for

App-7
clear error. See United States v. Weaver, 267 F.3d 231,
235 (3d Cir. 2001).
III.
Rojas makes five arguments on appeal: (i) the
District Court failed to instruct the jury properly on
the distinction between the terms “administer” and
“dispense,” as used in the FDCA; (ii) the Government
presented insufficient evidence to support her
misbranding convictions because it established only
that she administered animal drugs or caused them to
be administered rather than dispensed; (iii) the
District Court erred in allowing the Steward Rulings
into evidence; (iv) the District Court erred in excluding
evidence that the drugs given to the horses were for
therapeutic purposes; and (v) the District Court erred
in sentencing her for felony rather than misdemeanor
misbranding.
A.
Rojas first argues that the terms “administer” and
“dispense” have distinct meanings in the FDCA
misbranding provisions, and, as a result, the District
Court erred in refusing to instruct the jury that the
terms have different meanings and that proof that she
“administered” animal drugs does not prove that she
“dispensed” them. Rojas claims that “administer”
means giving a remedy to a patient whereas
“dispense” means giving a medicine to another person
for that person to administer. Rojas Br. 20-29 & n.10
(citing e.g., Administer, Webster’s Third New Int’l
Dictionary 27 (2002) (“to give remedially”); App. 165
(testimony from a Penn National veterinarian that
“administer” and “dispense” have different meanings);
Pennsylvania Rules of Professional Conduct for

App-8
Veterinarians, 49 Pa. Code § 31.21). Rojas also
emphasizes that other provisions of the FDCA use the
terms in different contexts within the same section,
implying that Congress intended them to have
different meanings. See, e.g., 21 U.S.C. § 353(b).
Finally, Rojas points to Young v. United States, in
which the Supreme Court held that “Congress, by the
use of the words ‘dispensing physicians[,]’ meant to
exclude physicians administering to patients whom
they personally attend.” 315 U.S. 257, 259 (1942).
The
Government
responds
that
Rojas’s
interpretation of “dispense” is inconsistent with the
term’s ordinary meaning, citing various dictionary
definitions defining “dispense using terms that are
synonymous with ‘administer.’” Gov. Br. 26-27. It
argues that when the veterinarians injected Rojas’s
horses they “both dispense[ed] and administer[ed] the
drugs themselves.” Gov. Br. 32 (quoting United States
v. Rojas, No. 1:15-cr-00169, 2019 WL 2172814, at *3
(M.D. Pa. May 20, 2019)). The Government asserts
that Rojas’s proposed interpretation would gut the
lawful order or prescription requirement and
contravene the purpose of the FDCA by placing
veterinarians who personally administer drugs
beyond its reach. Finally, it dismisses Young as
“immaterial” because it involved a now-repealed
internal revenue law and distinguished “administer”
and “dispense” in the context of physician recordkeeping. Gov. Br. 36.
We are unconvinced that Congress intended the
term “dispense” to exclude situations in which a
veterinarian personally administers a drug. The
FDCA bars the “doing of any . . . act with respect to[]

App-9
a . . . drug . . . if such act . . . results in such [drug]
being adulterated or misbranded.” 21 U.S.C. § 331(k).
And it provides that “dispensing a drug” without a
lawful prescription or order is “an act which results in
the drug being misbranded.” Id. § 353(f)(1)(A)-(C).
Because the FDCA does not define the word
“dispense,” “we construe it in accordance with its
ordinary meaning.” United States v. Husmann, 765
F.3d 169, 173 (3d Cir. 2014) (quoting Octane Fitness,
LLC v. ICON Health & Fitness, Inc., 572 U.S. 545, 553
(2014)). “Interpretation of a word or phrase depends
upon reading the whole statutory text, considering the
purpose and context of the statute.” Id. (quoting Dolan
v. U.S. Postal Serv., 546 U.S. 481, 486 (2006)).
The terms “administer” and “dispense” have both
distinct and overlapping ordinary meanings; some
dictionaries equate the terms, while others ascribe
them distinct definitions. Compare Administer,
Black’s Law Dictionary (11th ed. 2019) (“To give
(medicine or medical treatment) to someone.”) and
Dispense, Oxford English Dictionary, https://
www.oed.com/ (last visited Apr. 22, 2020) (“To mete
out, deal out, distribute”; “to administer”), with
Dispense, Stedman’s Medical Dictionary 571 (28th ed.
2006) (updated Nov. 2014) (“To give out medicine . . . ;
to fill a medical prescription.”). So resort to
dictionaries is not helpful.
But the FDCA was “designed primarily to protect
the health and safety of the public.” POM Wonderful
LLC v. Coca-Cola Co., 573 U.S. 102, 108 (2014). As
such, § 331(k) has been interpreted broadly to apply to
every applicable article that has gone through
interstate commerce. See United States v. Goldberg,

App-10
538 F.3d 280, 288-89 (3d Cir. 2008), as amended (Nov.
6, 2008). The “statute is remedial and should be
liberally construed so as to carry out its beneficent
purposes.” De Freese v. United States, 270 F.2d 730,
735 (5th Cir. 1959) (quotation marks omitted).
Rojas’s interpretation of § 331(k) and § 353(f)(1)
would contravene this broad remedial purpose. If the
word “dispensed” in § 353(f)(1) does not encompass
instances where veterinarians personally administer
prescription drugs, they could circumvent the lawful
order or prescription requirement simply by
administering drugs themselves. But, if veterinarians
sold or gave the same drug to a lay person who then
administered it, that person’s conduct would
constitute misbranding. We are not convinced that
Congress intended to create such a broad exemption
to misbranding by using the term “dispense” instead
of “administer” in § 353(f). The Supreme Court’s
decision in Young does not convince us otherwise—
that case addressed an old internal revenue law with
no connection to the FDCA other than its use of the
terms “administer” and “dispense.” See 315 U.S. at
259-60.
Given this interpretation of the term “dispense,”
and because the District Court’s instructions to the
jury closely tracked the relevant language of the
FDCA, we discern no error in the District Court’s
recitation of the law or its refusal to give the specific
instructions that Rojas requested. See United States v.
Williams, 299 F.3d 250, 258 (3d Cir. 2002).
B.
Based on the same purported distinction between
“administer” and “dispense,” Rojas contends that

App-11
there was insufficient evidence to convict her of
misbranding because the Government did not present
any evidence that she dispensed prescription animal
drugs. Applying our interpretation of the term
“dispense” and “interpret[ing] the evidence in the light
most favorable to the Government,” it is clear that
“there is substantial evidence from which a rational
trier of fact could find” that Rojas committed
misbranding. Starnes, 583 F.3d at 206 (quotation
marks omitted). The Government presented
considerable evidence at trial that the Penn National
veterinarians administered prohibited drugs to
Rojas’s horses within twenty-fours of post time at
Rojas’s direction. It also presented evidence that Rojas
herself administered prohibited drugs to her horses
within twenty-four hours of post time. Based on that
evidence, Rojas dispensed animal drugs and caused
animal drugs to be dispensed without a lawful order,
each instance of which qualifies as “an act which
results in [a] drug being misbranded.” 21 U.S.C.
§ 353(f)(1)(C).
C.
Rojas next argues that the District Court erred in
allowing the Government to introduce the Steward
Rulings because they are hearsay. She also argues
that the District Court’s precluding her from crossexamining a witness about the Steward Rulings
violated her rights under the Confrontation Clause.
We disagree. “Documents kept in the regular
course of business may ordinarily be admitted at trial
despite their hearsay status,” as long as the regularly
conducted activity is not “the production of evidence
for use at trial.” Melendez-Diaz v. Massachusetts, 557

App-12
U.S. 305, 321 (2009); see also Fed. R. Evid. 803(6). To
be subject to the Confrontation Clause, a hearsay
statement must be “testimonial,” meaning that it is a
“declaration or affirmation made for the purpose of
establishing or proving some fact” and “made
primarily for the purpose of prov[ing] past events
potentially relevant to later criminal prosecution.”
United States v. Gonzalez, 905 F.3d 165, 201 (3d Cir.
2018) (alteration in original) (quoting United States v.
Stimler, 864 F.3d 253, 272 (3d Cir. 2017)).
Campbell’s testimony established that the
Steward Rulings met the criteria for the business
records exception to the hearsay rule. Campbell
testified that he had been a steward for fifteen and a
half years, including three years as chief steward, and
he explained the purposes of the Steward Rulings as
well as how and why they are created and kept. This
evidence established that the Steward Rulings are
prepared to enforce Pennsylvania’s horse racing rules,
not to produce evidence for use in litigation. See
Gonzalez, 905 F.3d at 201. As a result, the District
Court did not abuse its discretion in admitting the
Steward Rulings into evidence, and their admission
did not violate Rojas’s rights under the Confrontation
Clause.
D.
Next, Rojas argues that the District Court should
not have precluded her expert witness from testifying
about whether the drugs administered were
therapeutic versus performance enhancing. She
contends that the Government’s felony misbranding
charge hinged on proving that she participated in a
fraud designed to win horse races and prize money.

App-13
Therefore, she argued that evidence that the drugs
were not performance enhancing is relevant to
whether she perpetrated such a fraud.
We disagree. Pennsylvania’s horse racing
regulations prohibit administering drugs to horses
within twenty-four hours of post time and, except for
a narrow exception not at issue, the regulations do not
distinguish between therapeutic and performanceenhancing drugs. See 58 Pa. Code § 163.302-304. Any
evidence that Rojas sought to introduce to draw such
a distinction is therefore irrelevant. Fed. R. Evid. 401.
Further, the probative value of testimony on the
nature of the drugs would have been substantially
outweighed by the risks of “confusing the issues” and
“misleading the jury” regarding whether the Rojas
violated 58 Pa. Code § 163.302. 2 See Fed. R. Evid. 403.
The District Court did not abuse its discretion in
precluding Rojas from presenting this evidence.
E.
Finally, Rojas argues that the District Court
should not have sentenced her for felony misbranding
because the Government did not present evidence that
she engaged in any fraud or attempted to cover up her
activities. She alleges that the evidence shows that
only the veterinarians were involved in falsifying
documents to the Commission. For support, she cites
United States v. Goldberg, in which we vacated a
defendant’s felony misbranding convictions because
2 The Government objected to this testimony on the grounds
that it was irrelevant under Rule 401 and risked confusing the
issues under Rule 403. The District Court’s ruling was based only
on Rule 401.

App-14
he “conducted his admittedly illegal ventures in the
open.” 538 F.3d 280, 290 (3d Cir. 2008).
Again, we disagree. Felony misbranding requires
the Government to prove “intent to defraud or
mislead.” Id. at 289 (quoting 12 U.S.C. § 333(a)(2)).
There was evidence presented at trial tending to show
that Rojas knew of the falsified reports, instructed the
veterinarians to inject substances within twenty-four
hours of post time, thus necessitating the falsified
reports, knew that administering drugs on race day
violated Pennsylvania regulations, and knowingly
participated in the entire venture. The veterinarians
testified that they willingly participated in the scheme
and understood that it was illegal. And the jury
returned a special interrogatory in the verdict form
finding that Rojas acted with the requisite intent to
defraud or mislead. We see no error in the District
Court’s sentencing Rojas for felony misbranding. 3
IV.
For these reasons, we will affirm the District
Court’s judgment of conviction and sentence.

3 We have considered the other arguments made by Rojas and
determined that they are without merit.

App-15
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 19-2056
________________
UNITED STATES OF AMERICA,
v.

Appellee,

MURRAY ROJAS,
Appellant.
________________
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN.
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
*SCIRICA, and *ROTH, Circuit Judges.
________________
Filed: Feb. 12, 2021
________________
The petition for rehearing filed by Appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
* Hon. Anthony J. Scirica and Hon. Jane R. Roth votes are
limited to panel rehearing.

App-16
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/Michael A. Chagares
Circuit Judge
Dated: February 12, 2021

App-17
Appendix C
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF PENNSYLVANIA
________________
No. 1:15-CR-00169
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

MURRAY ROJAS,
Defendant.
________________
Filed: Mar. 12, 2021
________________
MEMORANDUM & ORDER
________________
Defendant Murray Rojas’s motion for continued
bail on appeal pending petition for Writ of Certiorari
(Doc. 207) will be granted for substantially the same
reasons outlined in the court’s May 20, 2019
Memorandum and Order granting Ms. Rojas’s initial
motion for bail pending appeal (Docs. 189-90).
Ms. Rojas has established by clear and convincing
evidence that she is not likely to flee or pose a danger
to the safety of any other person or the community for
the same reasons discussed in the May 20, 2019
memorandum.
Ms. Rojas has also established by clear and
convincing evidence that her appeal raises a

App-18
substantial question of law for the reasons outlined in
the May 20, 2019 memorandum, such that her
conviction would likely be reversed if the issue is
decided in her favor. It may be true that Ms. Rojas now
faces an even greater uphill climb given the Third
Circuit’s subsequent affirmance of this court. The
government, however, presents no authority to
support its core argument that a live appellate
question is no longer substantial once it is rejected by
the Court of Appeals. Nor does the government make
a convincing case that the issue is controlled by the
Third Circuit’s denial of Ms. Rojas’s motion to stay.
Indeed, the government concedes Ms. Rojas’s motion
to stay turned in part on whether the Court of Appeals
panel believed that four members of the Supreme
Court would grant certiorari, while her present motion
does not require the court to “lay odds on the chances
of success of the defendant’s petition.” (Doc. 211, p. 9.)
Finally, Ms. Rojas has established by clear and
convincing evidence that her appeal is not for the
purpose of delay. Ms. Rojas’s motion demonstrates
that she has already retained Supreme Court counsel,
that her appeal is based on a good faith belief and
developed argument that this court’s decision should
be reversed, and that she has and will continue to act
expeditiously.
Accordingly, IT IS HEREBY ORDERED that
Defendant Murray Rojas’s motion for continued bail
on appeal pending petition for Writ of Certiorari is
GRANTED.
s/Sylvia H. Rambo
Sylvia H. Rambo
United States District Judge

App-19
Appendix D
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF PENNSYLVANIA
________________
No. 1:15-CR-00169
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

MURRAY ROJAS,
Defendant.
________________
Filed: May 20, 2019
________________
MEMORANDUM
________________
Presently before the court is Defendant’s verbal
motion for bail pending appeal made at the sentencing
hearing held on May 6, 2019. For the reasons stated
herein, the motion will be granted.
I.

Background

The factual background in this case is set forth at
length in this court’s memoranda denying Defendant’s
judgment for acquittal (Doc. 162) and denying
Defendant’s motion to suppress (Doc. 32). Defendant
was indicted on February 8, 2017, on charges of, inter
alia, administering misbranded drugs to racehorses
and conspiracy to do the same, arising out of
Defendant’s alleged direction to others to administer

App-20
prohibited substances to racehorses. (See Doc. 78.) At
the conclusion of a trial on the merits, the jury
returned a verdict of guilty as to Counts 8 through 20
of the Indictment, for misbranding of animal drugs in
violation of the Federal Drug and Cosmetic Act, 21
U.S.C. §§ 331(k), 353(f)(1)(c), and 333(a)(2), as well as
to Count 21, for conspiracy to misbrand animal drugs
in violation of 18 U.S.C. § 371. On May 7, 2019,
Defendant was sentenced to a term of imprisonment
of 27 months on each of Counts 8 through 21, to be
served concurrently, and a term of supervised release.
(Doc 181.) At the conclusion of sentencing, Defendant
made a verbal motion for bail pending disposition of
her appeal from the judgment and sentence imposed.
Defendant filed a timely notice of appeal on May 8,
2019. (Doc. 184.) The court ordered briefing on
Defendant’s verbal motion, and, briefs having been
filed, the matter is now ripe for disposition. For the
reasons stated herein, Defendant’s motion for bail
pending appeal will be granted.
II. Legal Standard
After being convicted of a crime beyond
reasonable doubt by a jury and sentenced to a term of
imprisonment, there is a presumption against bail
pending appeal. United States v. Brand, 224 F. Supp.
3d 437, 440 (E.D. Pa. 2016) (citing United States v.
Miller, 753 F.2d 19, 24 (3d Cir. 1985)). A defendant,
however, may be granted bail pending an appeal if she
satisfies the factors set forth in 18 U.S.C. § 3143(b),
which provides, in pertinent part:
(1) Except as provided in paragraph (2), the
judicial officer shall order that a person who
has been found guilty of an offense and

App-21
sentenced to a term of imprisonment, and
who has filed an appeal or a petition for a writ
of certiorari, be detained, unless the judicial
officer finds—
(A) by clear and convincing evidence
that the person is not likely to flee or pose
a danger to the safety of any other person
or the community if released under
section 3142(b) or (c) of this title; and
(B) that the appeal is not for the purpose
of delay and raises a substantial question
of law or fact likely to result in—
(i) reversal,
(ii) an order for a new trial,
(iii) a sentence that does not include
a term of imprisonment, or
(iv) a reduced sentence to a term of
imprisonment less than the total of
the time already served plus the
expected duration of the appeal
process.
18 U.S.C. § 3134(b). The defendant bears the burden
to demonstrate that she is entitled to release pending
appeal.
III. Discussion
The Government raises no arguments as to the
first factor in Section 3143(b): whether the person is
unlikely to flee or pose a danger to the community if
released. Regardless, the court makes the
independent
finding
that
Defendant
has
demonstrated by clear and convincing evidence that

App-22
she poses no flight risk because of her age, familial and
economic ties to the area, lack of contacts in foreign
jurisdictions, and financial capabilities. Further,
Defendant was convicted of nonviolent offenses, and is
no longer in a position to commit the crimes with
which she was charged due to the court’s prohibition
on her involvement with horse racing. Accordingly,
the court finds that Defendant has met her burden to
prove the first factor of Section 3143(b). Thus, the
court will address the remaining factor set forth in
Section 3134(b).
With respect the second factor, the court must
determine: (1) whether the question raised on appeal
is a “substantial” one, i.e., it must find that the
question at issue is one which is novel, which has not
been decided by controlling precedent, or which is
fairly doubtful; and (2) whether that question is likely
to result in reversal, a new trial, or a reduced sentence
as set forth in Section 3143(b)(iii), (iv). In United
States v. Smith, 793 F.2d 85, 89 (3d Cir. 1986), the
Third Circuit clarified that a question is “substantial”
where: “[it is] debatable among jurists of reason; [] a
court could resolve the issues [in a different manner];
or [] the questions are adequate to deserve
encouragement to proceed further.” Smith, 793 F.2d at
89 (internal quotation omitted). Although the absence
of relevant precedent is not “enough,” because the
issue may be meritless on its face, it is a factor in
determining whether an issue is substantial. Id. at 90.
In this case, Defendant raised a plethora of issues
that she argues would constitute substantial
questions on appeal. (See Doc. 188.) The court need
only find that one is “substantial” and would require

App-23
reversal, a new trial, or reduction in sentence. As
argued in her motion for acquittal (Doc. 144),
Defendant asserts that the Government improperly
conflated the meaning of “dispensed” and
“administered” when charging her with misbranding
of animal drugs in violation of 21 U.S.C. §§ 331(k),
353(f)(1)(c), and 333(a)(2). This distinction was
expounded upon at length in this court’s opinion
denying Defendant’s motion for acquittal (Doc. 162,
pp. 4-7), but, in short, Defendant argues that the
administration of drugs is limited only to the physical
act of giving the drugs orally, intravenously, or
otherwise, while “dispensing” is limited to the
transference of drugs from one person to another,
whether by sale, prescription, or other means. The
court in its opinion denying Defendant’s motion for
acquittal, recognized that a Supreme Court case
supported this distinction:
In United States v. Young, 315 U.S. 257
(1942), the United States Supreme Court
interpreted the Harrison Anti-Narcotic Act,
an Internal Revenue Service statute
unrelated to the [Federal Drug and Cosmetic]
Act, and held that administering physicians
were exempt from the record-keeping
requirements of the Harrison Act, while
dispensing physicians were not. Id. at 258-61.
The Court explained that, “Congress, by the
use of the words ‘dispensing physicians,’
meant to exclude physicians administering to
patients whom they personally attend.” Id. at
259.

App-24
(Doc. 162 at 7.) This court, however, concluded that
the distinction drawn between administering and
dispensing in Young was not relevant to the Federal
Drug and Cosmetic Act because it would create an
absurd distinction “between a hypothetical situation
where the veterinarians would have dispensed the
drugs to Defendant for her to then inject the horses,
which Defendant appears to concede would be
misbranding, and what occurred here, where the
veterinarians would both dispense and administer the
drugs themselves.” (Id. at 7.) The court stands by its
reasoning that such a distinction would create the
“unintended result that would allow those involved in
the illegal scheme to skirt a misbranding charge by
having veterinarians inject the drugs rather than the
trainers or owners of horses.” (Id.) In contrast, in
Young, the purpose of the statute was to create an
affirmative duty to keep records of transfers of
narcotics, presumably to prevent such drugs becoming
untraceable, i.e., once the drugs were in the hands of
the physician who would be physically administering
the drugs to a patient, the need for a “chain of custody”
would no longer be present. The purpose of the Federal
Drug and Cosmetic Act is much broader and includes
a wide variety of acts whose essential purposes are to
administer drugs for unintended effects. This broader
prohibition does not contain an inherent distinction
between the administration and dispensation of
drugs, and the jury found here that Defendant
obtained drugs with the intention of using them for
purposes that did not comport with their intended use
or medical necessity. Thus, in this court’s view, the
distinction raised by Defendant, now for the fourth
time, amounts to a semantical difference rather than

App-25
an intended delineation by Congress. This, however,
does not end the present inquiry.
The standard that the court must now apply is not
simply whether the court would rescind its prior
ruling, and, as stated above, the court stands by its
interpretation. The court does, however, recognize
that the relevant issue here has not been definitively
decided by an appellate court. As illustrated by the
discussion of the Young case, supra, the distinctions
raised by Defendant are not wholly without merit.
Reasonable jurists could differ as to whether the
distinction between “administer” and “dispense” was a
purposeful one in the Federal Drug and Cosmetic Act
as it was in the Harrison Anti-Narcotic Act. Clarifying
whether this distinction is purposeful is an issue
worthy of encouragement to proceed on appeal as it
may either promote prosecution of additional violators
of the law or dissuade the Government from bringing
claims that were unintended by Congress. Therefore,
the court finds that the Defendant has demonstrated
that at least one issue raised on appeal is “substantial”
under Section 3143. Moreover, the Government does
not contest that if the issue were decided in favor of
Defendant, it would likely result in reversal or a new
trial. Accordingly, the court concludes that Defendant
has satisfied all the elements required to justify the
allowance of bail pending appeal.
IV. Conclusion
For the reasons stated herein, the court finds that
(1) Defendant is not likely to flee or pose a danger to
the safety of any other person or the community if
released; (2) that Defendant’s appeal is not for the
purpose of delay; and (3) that Defendant’s appeal

App-26
raises a substantial question of law likely to result in
reversal or an order for a new trial. Accordingly,
Defendant’s motion for bail pending appeal will be
granted.
An appropriate order will issue.
s/Sylvia H. Rambo
Sylvia H. Rambo
United States District Judge

App-27
Appendix E
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF PENNSYLVANIA
________________
No. 1:15-CR-00169
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

MURRAY ROJAS,
Defendant.
________________
Filed: June 14, 2017
________________
ORDER
________________
In this criminal action, a twenty-one count Second
Superseding Indictment was returned on February 8,
2017, charging Defendant with several violations of
federal law, including wire fraud, conspiracy to
commit wire fraud, and administering misbranded
drugs to racehorses and conspiracy to do the same,
arising out of Defendant’s alleged direction to others
to administer prohibited substances to racehorses
before more than forty separate horse races at Penn
National Race Course in Harrisburg, Pennsylvania.
(See Doc. 78.)
Presently before the court is Defendant’s motion
to dismiss Counts 8 through 21 of the Second
Superseding Indictment pursuant to Federal Rule of

App-28
Criminal Procedure 12(b)(3) for failure to state an
offense. (Doc. 98.) The Government opposes the
motion, which has now been fully briefed (Docs. 99,
100, 102, 103) and is ripe for disposition.
I.

Relevant Facts & Procedural History

Defendant has been a horse trainer or otherwise
involved in the horse racing industry for more than
twenty-five years. As alleged in the Second
Superseding Indictment (the “Indictment”), the
Government became aware that Defendant had been
both administering, and directing others to
administer, prohibited substances to her horses on
race days. (See Doc. 78, p. 6.) The alleged scheme was
carried on from January 2002 through September
2014, wherein Defendant would either administer
illegal substances or direct veterinarians to do the
same to horses that Defendant was entering to race at
Penn National Race Course in Grantville,
Pennsylvania. As the trainer of the horses, Defendant
was entitled to a percentage of the purse for each race
where one of her horses finished in the top three, and
those winnings were then electronically deposited in
her bank account via interstate commerce. (Id. at pp.
6, 10-12.)
Based on this scheme, the Indictment charges
Defendant with wire fraud in violation of 18 U.S.C.
§§ 1343 and 2 (Counts 1-6), conspiracy to commit wire
fraud in violation of 18 U.S.C. § 1349 (Count 7),
misbranding animal drugs in violation of 21 U.S.C.
§§ 331(k), 353(f)(1)(C), and 333(a)(2) (Counts 8-20),
and conspiracy to misbrand animal drugs in violation
of 18 U.S.C. § 371 (Count 21).

App-29
II. Legal Standard
Federal Rule of Criminal Procedure 7(c)(1)
requires that an indictment “be a plain, concise, and
definite written statement of the essential facts
constituting the offense charged.” United States v.
Huet, 665 F.3d 588, 594 (3d Cir. 2012) (quoting United
States v. Resendiz-Ponce, 549 U.S. 102, 110 (2007)). “It
is well-established that ‘[a]n indictment returned by a
legally constituted and unbiased grand jury, . . . if
valid on its face, is enough to call for trial of the charge
on the merits.’” United States v. Vitillo, 490 F.3d 314,
320 (3d Cir. 2007) (quoting Costello v. United States,
350 U.S. 359, 363 (1956)) (alteration and emphasis in
original). An indictment is facially valid if it “(1)
contains the elements of the offense intended to be
charged, (2) sufficiently apprises the defendant of
what he must be prepared to meet, and (3) allows the
defendant to show with accuracy to what extent he
may plead a former acquittal or conviction in the event
of a subsequent prosecution.” Huet, 665 F.3d at 595
(quoting Vitillo, 490 F.3d at 321). “‘[N]o greater
specificity than the statutory language is required so
long as there is sufficient factual orientation to permit
the defendant to prepare his defense and invoke
double jeopardy in the event of a subsequent
prosecution.” United States v. Kemp, 500 F.3d 257, 280
(3d Cir. 2007) (quoting United States v. Rankin, 870
F.2d 109, 112 (3d Cir. 1989)). “Generally, an
indictment will satisfy these requirements where it
informs the defendant of the statute he is charged
with violating, lists the elements of a violation under
the statute, and specifies the time period during which
the violations occurred.” United States v. Stevenson,

App-30
832 F.3d 412, 424 (3d Cir. 2016) (quoting Huet, 665
F.3d at 595).
“Federal Rule of Criminal Procedure 12(b)(3)(B)
allows a district court to review the sufficiency of the
government's pleadings to . . . ensur[e] that legally
deficient charges do not go to a jury.” Huet, 665 F.3d
at 595 (quoting United States v. Bergrin, 650 F.3d 257,
268 (3d Cir. 2011)) (alteration in original). Although
detailed allegations are not required to support
charges, an indictment nonetheless fails to state an
offense if the facts alleged therein “fall beyond the
scope of the relevant criminal statute, as a matter of
statutory interpretation.” United States v. Panarella,
277 F.3d 678, 685 (3d Cir. 2002). However, “a pretrial
motion to dismiss an indictment is not a permissible
vehicle for addressing the sufficiency of the
government's evidence.” United States v. DeLaurentis,
230 F.3d 659, 660 (3d Cir. 2000) (citations omitted).
Rather, a court evaluating a motion to dismiss “must
accept as true the factual allegations set forth in the
indictment.” Huet, 665 F.3d at 595 (citing United
States v. Sampson, 371 U.S. 75, 78-79 (1962)).
“Evidentiary
questions—such
as
credibility
determinations and the weighing of proof—should not
be determined at this stage.” Bergrin, 650 F.3d at 265.
Thus, the court’s task in reviewing a motion to dismiss
an indictment is to determine whether, assuming the
facts stated in the indictment are true, a jury could
find the defendant guilty of the offense charged. See
Huet, 665 F.3d at 595 (first citing Panarella, 277 F.3d
at 685) (then citing DeLaurentis, 230 F.3d at 660).

App-31
III. Discussion
Defendant seeks to dismiss Counts 8 through 21
of the Indictment, which charge Defendant with
misbranding, and conspiracy to misbrand, animal
drugs. The crux of Defendant’s argument is that
misbranding of animal drugs in violation of 21 U.S.C.
§§ 331(k), 353(f)(1)(C), and 333(a)(2) can only occur if
an unlicensed veterinarian—or non-veterinarian—
administers the drugs to an animal, and because all of
Defendant’s co-conspirators in the alleged doping
scheme were licensed veterinarians, these charges fail
as a matter of law. A simple review of the statute leads
the court to conclude otherwise.
The Federal Food, Drug, and Cosmetic Act (the
“Act”) prohibits the doing of any act that causes a drug
to become misbranded after it has moved in interstate
commerce and while it is held for sale. 21 U.S.C.
§ 331(k). The Act defines several ways in which a drug
can become misbranded, among which is if a drug’s
labeling lacks “adequate directions for use.” 21 U.S.C.
§ 352(f). Adequate directions are defined in the
regulations accompanying the Act as those under
which a layman could use the drug safely and for its
intended purpose. See 21 C.F.R. § 201.5. Because all of
the drugs that the Indictment charges Defendant with
misbranding are prescription drugs, they are not
available for use by laymen and instead may only be
used “under the supervision of a licensed
veterinarian.” 21 U.S.C. § 353(f)(1)(A). Thus,
prescription drugs are only exempt from the Act’s
requirement that they be labeled with adequate
directions for lay use if they are dispensed upon a
written prescription or “the lawful written or oral

App-32
order of a licensed veterinarian in the course of the
veterinarian’s professional practice.” 21 U.S.C.
§ 353(b)(1). The dispensing of a prescription drug to an
animal in contravention of § 353(f)(1)(A) causes the
drugs to become misbranded. 21 U.S.C. § 353(f)(1)(C).
Defendant reads the Act as merely requiring a
licensed veterinarian to avoid a misbranding charge.
However, it is clear from the face of § 353 that the
administration of prescription drugs to an animal
must be done pursuant to either a prescription or some
other lawful oral or written order of a licensed
veterinarian in the course of that veterinarian’s
professional practice. Defendant thus ignores two of
the three elements required to meet the prescription
drug exemption to misbranding. Defendant also
mistakenly relies on United States v. Goldberg, 538
F.3d 280 (3d Cir. 2008) as somehow standing for the
proposition that misbranding can only occur if
prescription drugs are administered by a nonveterinarian without a prescription. (See Doc. 10, pp.
10-11.) This is simply not true. The Third Circuit in
Goldberg did not hold as Defendant suggests, but
merely rejected an argument that selling prescription
drugs without a valid prescription required something
more to constitute a violation of § 353. Goldberg, 538
F.3d at 288 (citing United States v. Arlen, 947 F.2d
139, 141 n.2 (5th Cir. 1991) (“Any prescription drug
that is dispensed without a prescription is deemed
‘misbranded’ as a matter of law.”). The Indictment
alleges that Defendant ordered various veterinarians
to administer prescription drugs to racehorses within
twenty-four hours of a race, in violation of
Pennsylvania’s rules and regulations for horseracing.
Whether Defendant herself administered any

App-33
prescription drugs to the horses is immaterial for the
purposes of a misbranding charge pursuant to § 331(k)
because § 331 prohibits “[t]he following acts and the
causing thereof.” 21 U.S.C. § 331. As alleged in the
Indictment, although the veterinarians were licensed,
they were acting upon the demand of Defendant, not
pursuant to a prescription or other lawful order, when
they administered the prescription drugs to the
horses. The Act makes clear that dispensing a
prescription drug to an animal requires a licensed
veterinarian acting upon a prescription or other lawful
written or oral order in the course of his or her
professional practice. Stated more simply, even a
licensed veterinarian can act unlawfully and therefore
violate the Act. The Indictment sufficiently alleges
that no lawful prescription or order existed, and that
Defendant caused the veterinarians to administer the
prescription drugs in violation of §§ 331(k) and 353(f).
It will be for the factfinder to determine at trial
whether the licensed veterinarians dispensed any
prohibited substances to horses in contravention of
Pennsylvania law, and if so, whether they were acting
lawfully in accordance with their professional
practices or merely at the behest of Defendant during
such administration.
IV. Conclusion
For the reasons stated herein, the court finds that
Counts 8 through 21 of the Second Superseding
Indictment (Doc. 78) adequately state offenses against
Defendant.

App-34
Accordingly, IT IS HEREBY ORDERED that
Defendant’s motion to dismiss (Doc. 98) is DENIED.
s/Sylvia H. Rambo
Sylvia H. Rambo
United States District Judge

App-35
Appendix F
RELEVANT STATUTORY PROVISIONS
21 U.S.C. § 331(k)
(k) The
alteration,
mutilation,
destruction,
obliteration, or removal of the whole or any part of the
labeling of, or the doing of any other act with respect
to, a food, drug, device, tobacco product, or cosmetic, if
such act is done while such article is held for sale
(whether or not the first sale) after shipment in
interstate commerce and results in such article being
adulterated or misbranded.
21 U.S.C. § 333(a)
(a) Violation of section 331 of this title; second
violation; intent to defraud or mislead
(1) Any person who violates a provision of section
331 of this title shall be imprisoned for not more
than one year or fined not more than $1,000, or
both.
(2) Notwithstanding the provisions of paragraph
(1) of this section1, if any person commits such a
violation after a conviction of him under this
section has become final, or commits such a
violation with the intent to defraud or mislead,
such person shall be imprisoned for not more than
three years or fined not more than $10,000, or
both.

1 So in original. Words “of this section” probably should not
appear.

App-36
21 U.S.C. § 353(b)
(b) Prescription by physician; exemption from
labeling
and
prescription
requirements;
misbranded drugs; compliance with narcotic
and marihuana laws
(1) A drug intended for use by man which-(A) because of its toxicity or other
potentiality for harmful effect, or the method
of its use, or the collateral measures
necessary to its use, is not safe for use except
under the supervision of a practitioner
licensed by law to administer such drug; or
(B) is limited by an approved application
under section 355 of this title to use under the
professional supervision of a practitioner
licensed by law to administer such drug;
shall be dispensed only (i) upon a written
prescription of a practitioner licensed by law to
administer such drug, or (ii) upon an oral
prescription of such practitioner which is reduced
promptly to writing and filed by the pharmacist,
or (iii) by refilling any such written or oral
prescription if such refilling is authorized by the
prescriber either in the original prescription or by
oral order which is reduced promptly to writing
and filed by the pharmacist. The act of dispensing
a drug contrary to the provisions of this
paragraph shall be deemed to be an act which
results in the drug being misbranded while held
for sale.
(2) Any drug dispensed by filling or refilling a
written or oral prescription of a practitioner

App-37
licensed by law to administer such drug shall be
exempt from the requirements of section 352 of
this title, except paragraphs (a), (i)(2) and (3), (k),
and (l), and the packaging requirements of
paragraphs (g), (h), and (p), if the drug bears a
label containing the name and address of the
dispenser, the serial number and date of the
prescription or of its filling, the name of the
prescriber, and, if stated in the prescription, the
name of the patient, and the directions for use and
cautionary statements, if any, contained in such
prescription. This exemption shall not apply to
any drug dispensed in the course of the conduct of
a business of dispensing drugs pursuant to
diagnosis by mail, or to a drug dispensed in
violation of paragraph (1) of this subsection.
(3) The Secretary may by regulation remove
drugs subject to section 355 of this title from the
requirements of paragraph (1) of this subsection
when such requirements are not necessary for the
protection of the public health.
(4)(A) A drug that is subject to paragraph (1)
shall be deemed to be misbranded if at any
time prior to dispensing the label of the drug
fails to bear, at a minimum, the symbol “Rx
only”.
(B) A drug to which paragraph (1) does not
apply shall be deemed to be misbranded if at
any time prior to dispensing the label of the
drug bears the symbol described in
subparagraph (A).
(5) Nothing in this subsection shall be construed
to relieve any person from any requirement

App-38
prescribed by or under authority of law with
respect to drugs now included or which may
hereafter be included within the classifications
stated in sections 4721, 6001, and 6151 of Title 26,
or to marihuana as defined in section 4761 of Title
26.
21 U.S.C. § 353(f)
(f) Veterinary prescription drugs
(1)(A) A drug intended for use by animals other
than man, other than a veterinary feed
directive drug intended for use in animal feed
or an animal feed bearing or containing a
veterinary feed directive drug, which-(i) because of its toxicity or other
potentiality for harmful effect, or the
method of its use, or the collateral
measures necessary for its use, is not safe
for animal use except under the
professional supervision of a licensed
veterinarian, or
(ii) is limited by an approved application
under subsection (b) of section 360b of
this title, a conditionally-approved
application under section 360ccc of this
title, or an index listing under section
360ccc-1 of this title to use under the
professional supervision of a licensed
veterinarian,
shall be dispensed only by or upon the lawful
written or oral order of a licensed
veterinarian in the course of the
veterinarian's professional practice.

App-39
(B) For purposes of subparagraph (A), an
order is lawful if the order-(i) is a prescription or other order
authorized by law,
(ii) is, if an oral order, promptly reduced
to writing by the person lawfully filling
the order, and filed by that person, and
(iii) is refilled only if authorized in the
original order or in a subsequent oral
order promptly reduced to writing by the
person lawfully filling the order, and filed
by that person.
(C) The act of dispensing a drug contrary to
the provisions of this paragraph shall be
deemed to be an act which results in the drug
being misbranded while held for sale.
(2) Any drug when dispensed in accordance with
paragraph (1) of this subsection-(A) shall be exempt from the requirements of
section 352 of this title, except subsections
(a), (g), (h), (i)(2), (i)(3), and (p) of such section,
and
(B) shall be exempt from the packaging
requirements of subsections (g), (h), and (p) of
such section, if-(i) when dispensed by a licensed
veterinarian, the drug bears a label
containing the name and address of the
practitioner and any directions for use
and cautionary statements specified by
the practitioner, or

App-40
(ii) when dispensed by filling the lawful
order of a licensed veterinarian, the drug
bears a label containing the name and
address of the dispenser, the serial
number and date of the order or of its
filling, the name of the licensed
veterinarian, and the directions for use
and cautionary statements, if any,
contained in such order.
The preceding sentence shall not apply to any
drug dispensed in the course of the conduct of
a business of dispensing drugs pursuant to
diagnosis by mail.
(3) The Secretary may by regulation exempt
drugs for animals other than man subject to
section 360b, 360ccc, or 360ccc-1 of this title from
the requirements of paragraph (1) when such
requirements are not necessary for the protection
of the public health.
(4) A drug which is subject to paragraph (1) shall
be deemed to be misbranded if at any time prior
to dispensing its label fails to bear the statement
“Caution: Federal law restricts this drug to use by
or on the order of a licensed veterinarian.”. A drug
to which paragraph (1) does not apply shall be
deemed to be misbranded if at any time prior to
dispensing its label bears the statement specified
in the preceding sentence.
21 U.S.C. § 396
Nothing in this chapter shall be construed to limit or
interfere with the authority of a health care
practitioner to prescribe or administer any legally
marketed device to a patient for any condition or

App-41
disease within a legitimate health care practitionerpatient relationship. This section shall not limit any
existing authority of the Secretary to establish and
enforce restrictions on the sale or distribution, or in
the labeling, of a device that are part of a
determination of substantial equivalence, established
as a condition of approval, or promulgated through
regulations. Further, this section shall not change any
existing prohibition on the promotion of unapproved
uses of legally marketed devices.

